WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1493

‘Stephen Nichols Wayne County, MI, et al.

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO Tam filing this waiver on behalf of all respondents.

© Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Wayne County, Kym Worthy, and the Wayne County Prosecutor's Office

|

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 205438).

Signature:

Date: \5/6/20

 

(ype or print) Name Dayidde A. Stella |

 

 

© wr. O Ms. oO Mrs. © Miss
Firm Wayne County Corporation Counsel
Address {600 Griswold St., Floor 30 _ ; -
City & State Detroit Ml - _ Zip 48226 -
Phone 3132240696 Email dstella@waynecounty.com -

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

|Mahesha P. Subbaraman, Counsel for Petitioner |
rod oanne Geha Swanson, Counsel for Respondent City of Lincoln Park |
